No. 20-877

 

 

IN THE

Supreme Court of the United States

TRINELL KING,

Petitioner,
v.

RICKY PRIDMORE, COREY ARCHER, AND ANDREW HILL,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,639 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 3, 2021.

 

Wilson-Epes Printing Co., Inc.
